Audit Report



Return
    to the USDOJ/OIG Home Page





Office of Community Oriented Policing Services Grantsto the Irvine Police DepartmentIrvine, California


Report No. GR-90-03-015


July 2003
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Irvine Police Department (IRPD).  The purpose of the grants is to enhance community policing.  The IRPD was awarded $2,776,998 to hire 17 new police officers and redeploy the equivalent of 41.6 existing full-time police officers to community policing.
We reviewed the IRPD's compliance with seven essential grant conditions and found no weaknesses in each of the areas we tested:  budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officer positions, officer redeployment, and community policing.  However, we found that the IRPD failed to fully draw down funds for the MORE 95 and MORE 96 grants.  As a result of the deficiencies identified below, we recommend that $137,454 for the MORE 95 and $43,866 for the MORE 96 grant be deobligated and put to better use.1

The IRPD failed to fully draw down MORE 95 grant funds totaling $137,454.
The IRPD failed to fully draw down MORE 96 grant funds totaling $43,866.

Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.